No. __-_________
IN THE SUPREME COURT OF THE UNITED STATES

RAMADA TAJEDEEN SHABAZZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PROOF OF SERVICE
I, Christopher Allen Curtis, do certify that on this date, October 13, 2020, pursuant to
Supreme Court Rules 29.3 and 29.4, I have served the attached Motion for Leave to Proceed in
Forma Pauperis and Petition for a Writ of Certiorari on each party to the above proceeding, or that
party's counsel, and on every other person required to be served. I have served the Supreme Court
of the United States via Federal Express, priority overnight. The Solicitor General and the petitioner
were each served by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid. Assistant United States
Attorney Stephen Gilstrap has been served by email, per his request.

The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

Solicitor General of the United States
Department of Justice
Room 5616
Washington, D.C. 20530

1

Stephen Gilstrap
Assistant United States Attorney
Northern District of Texas
1100 Commerce Street, Unit 300
Dallas, TX 75242
stephen.gilstrap@usdoj.gov

JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax
**

/s/ Christopher Allen Curtis
CHRISTOPHER ALLEN CURTIS**
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 05270900
819 Taylor Street, Room 9A10
Fort Worth, TX 76102
(817) 978-2753
(817) 978-2757 Fax

Counsel of Record

1

